C@OQCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-1212

PEYMAN PAKDEL; SIMA GHEGINI,
Petitioners,
Vv.
CITY AND COUNTY OF SAN FRANCISCO;
SAN FRANCISCO BOARD OF SUPERVISORS;
SAN FRANCISCO DEPARTMENT OF PUBLIC WORKS,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
SOUTHEASTERN LEGAL FOUNDATION, NATIONAL FEDERATION OF INDEPENDENT
BUSINESS SMALL BUSINESS LEGAL CENTER, AND TEXAS PUBLIC POLICY
FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 4192 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of April, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

@ GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS 9 A. Chih
i ‘My Comm. Exp. Septembar 5, 2023 =

Notary Public Affiant 40802
